  DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General

    Transportation Security Administration’s
       Information Technology Managed
              Services Contract




               Office of Audits
OIG-06-23                         February 2006
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                              Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by our office as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within the
department.

This review was conducted at the request of Congressman Don Young, Chairman, Committee on
Transportation and Infrastructure, U.S. House of Representatives. We assessed the Transportation
Security Administration’s (TSA) oversight of its ITMS contract with Unisys Corporation. Our
report is based on interviews with employees and officials of relevant agencies and institutions,
direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Table of Contents/Abbreviations

  Executive Summary .........................................................................................................................1

  Background ......................................................................................................................................3

  Contract Cost and Structure .............................................................................................................4

  Planned Versus Actual Costs and Deliverables ...............................................................................8

  Performance Measures and Contract Performance........................................................................11

  Appropriate Use of Small Business ...............................................................................................14

  Appropriate Use of New Technology ............................................................................................14

  Conclusion .....................................................................................................................................15

  Management Comments and OIG Analysis ..................................................................................16


Appendices
  Appendix A:            Purpose, Scope, and Methodology .......................................................................17
  Appendix B:            Work Order Descriptions .....................................................................................19
  Appendix C:            Contract Deliverables Not Fully Completed ........................................................20
  Appendix D:            Federal Security Director Survey Questionnaire Results.....................................25
  Appendix E:            Methods and Tools TSA Uses to Measure, Monitor, and Track Performance on
                         the Unisys Contract ..............................................................................................30
  Appendix F:            Management Comments.......................................................................................31
  Appendix G:            Congressional Request .........................................................................................37
  Appendix H:            Major Contributors to this Report ........................................................................38
  Appendix I:            Report Distribution...............................................................................................39


Abbreviations
  ATP                    Authorization to Proceed
  ATSA                   Aviation and Transportation Security Act
  COTR                   Contracting Officer’s Technical Representative
  DCAA                   Defense Contract Audit Agency
  DHS                    Department of Homeland Security
  DOT                    Department of Transportation
  EVM                    Earned Value Management
  FAR                    Federal Acquisition Regulation
  FSD                    Federal Security Director
  FTE                    Full Time Equivalent
Table of Contents/Abbreviations
  FY        Fiscal Year
  GWAC      Government Wide Agency Contract
  HSOC      High Speed Operational Connectivity
  IT        Information Technology
  ITMS      Information Technology Managed Services
  ITOP II   Information Technology Omnibus Procurement II
  IV&V      Independent Verification and Validation
  LAN       Local Area Network
  LMR       Land Mobile Radios
  OIG       Office of Inspector General
  OIT       Office of Information Technology
  OMB       Office of Management and Budget
  PMIP      Performance Management Improvement Plan
  QASP      Quality Assurance Surveillance Plan
  RFP       Request for Proposal
  SLA       Service Level Agreement
  SOO       Statement of Objectives
  SOW       Statement of Work
  SR        Service Request
  TSA       Transportation Security Administration
  WAN       Wide Area Network
OIG                                                                                               Audit
                                                                                                  Report
Department of Homeland Security
Office of Inspector General

Executive Summary
                          The Office of Inspector General (OIG) reviewed Transportation Security
                          Administration’s (TSA) contract with Unisys Corporation (Unisys) for
                          Information Technology Managed Services (ITMS) in response to a request from
                          Congressman Don Young, Chairman, Committee on Transportation and
                          Infrastructure, U.S. House of Representatives. Specifically, Congressman Young
                          requested answers to the following questions:

                          1. How are the contract and related task orders set up, including how much the
                             government has paid and what services and/or products have been received?
                          2. How do those actual services and products received compare to what was
                             planned?
                          3. How is contractor performance under these task orders measured and how is
                             the contractor performing under these measures?
                          4. How does TSA ensure appropriate use of small businesses?
                          5. How does TSA ensure appropriate use of new technology through this
                             contract?

                          In 2002, TSA started the rollout of security operations at airports under
                          congressionally mandated short timeframes with significant budget constraints.
                          To quickly establish an information technology and telecommunication
                          infrastructure needed to support its employees at headquarters and airport
                          locations across the United States, TSA awarded a $1 billion contract to Unisys
                          using a broad statement of objectives to describe the requirements. At the time of
                          award, the TSA Office of Information Technology (OIT) and Contracting Office
                          had small staffs overseeing numerous high value acquisitions, including the
                          Unisys contract.

                          By the beginning of Fiscal Year (FY) 2006, TSA spent most of the contract
                          ceiling without receiving many of the contract deliverables critical to airport
                          security and communications. The following discussion references the questions
                          posed by Congressman Young.

                          1. Contract Cost and Structure – TSA’s OIT projected that, by the beginning
                             of FY 2006, its total costs on the Unisys contract would exceed $834 million.
                             The original contract including option years was to run through FY 2009;
                             therefore, 83 percent of the contract ceiling has been expended in less than
                             half of the allotted time. TSA awarded a Statement of Objectives (SOO) 1

1
 Under a Statement of Objectives (SOO) contract, the government describes its requirement in terms of desired objectives.
Contractors are then asked to propose solutions that they believe will best meet or exceed the objectives.
   contract in August 2002, but did not receive FY 2003 funding at anticipated
   levels. OIT issued numerous requests for specific tasks and deliverables, but
   did not always ensure that technical proposals included all of the required
   contracting elements such as statements of work with delivery due dates and
   acceptance criteria.

2. Planned Versus Actual Costs and Deliverables – Although actual contract
   costs exceeded planned contract costs, TSA did not receive all planned
   contract deliverables. TSA attributed most of its setbacks to budget cuts,
   understaffing, and changing or increasing requirements. TSA officials said
   that they originally estimated that the contract could exceed $3-5 billion, but
   set the contract ceiling at $1 billion. In its response to our draft report, TSA
   said that the $1 billion ceiling was based on specific requirements but could
   not document which specific requirements.

3. Performance Measures and Contract Performance – TSA did not have
   adequate performance measures on the Unisys contract two years into the
   contract. Performance measures have evolved and improved over the life of
   the contract through TSA’s efforts to improve them, but performance
   measures were limited to a small portion of contract work and were added too
   late in the contract cycle to be effective in assessing the contractor’s
   performance.

4. Appropriate Use of Small Business – Unisys use of small businesses is
   appropriate. TSA has taken an aggressive approach to ensure that Unisys
   complies with small business subcontractor management responsibilities.

5. Appropriate Use of New Technology – TSA did not provide airport Federal
   Security Directors (FSDs) with all of the high-speed connections needed to
   obtain and transfer data and email necessary for their business operations.
   FSDs told us they were dissatisfied with the low level of technology in the
   equipment provided by TSA.

In our draft report, we recommended that TSA terminate the current contract at
the end of the base period and re-bid the contract, and implement procedures to
ensure that future contracts are procured with proper controls. TSA concurred
with the recommendations and has developed a new acquisition strategy for
information technology services. This strategy identified some work previously
performed by Unisys for immediate competition, and allows for future
competition as opportunities are identified. On December 30, 2005, TSA
awarded a ‘bridge’ contract to Unisys that allows it to retain equipment leased
under the current ITMS contract, and provide for the transition of ongoing
projects. TSA said that the ‘bridge’ contract implements sound business practices
and processes to address the weaknesses identified in our report. We consider
the recommendations resolved and closed based on TSA’s assurances that these
actions are complete.


                  TSA’s Information Technology Managed Services Contract
                                         Page 2
Background
             The Aviation and Transportation Security Act, Public Law 107-71, established
             TSA as a component of the Department of Transportation (DOT). The Act
             mandated an aggressive schedule to rollout new security operations across 429
             airports nation-wide by November 2002. To accomplish this rollout, TSA needed
             to establish information technology and telecommunication infrastructure support
             and managed services for its anticipated 65,000 employees at headquarters, as
             well as 429 airports, 21 field offices, the TSA Command Center, and other
             locations to be determined. In August 2002, TSA used a streamlined acquisition
             strategy to award a $1 billion ITMS contract to Unisys.

             The most basic Unisys deliverable, High Speed Operational Connectivity
             (HSOC), provides the foundation for information technology capabilities. OIT
             defined this deliverable in three phases:

             •   Red Package, “Getting TSA Started” - This package included dial up
                 connectivity, laptops, pagers, and cell phones that served as the foundation
                 for TSA’s capabilities. Unisys was to complete this delivery by
                 November 19, 2002.

             •   White Package (now known as HSOC), “Making IT Functional” - This
                 package included high-speed data connectivity, phone systems, integrated
                 scheduling, encrypted radios, and the Electronic Surveillance System. Unisys
                 was to complete this delivery by December 31, 2002.

             •   Blue Package, “Optimizing IT” - This package included Airport Command
                 Centers, advanced wireless applications, integration with DHS applications,
                 and Land Mobile Radios (LMR) interoperability. TSA did not give Unisys a
                 specific due date to complete this package.

             As of September 30, 2004, Unisys had fully delivered the Red Package but not
             the White Package. Due to funding constraints, TSA was unable to begin
             implementation of the Blue Package.




                               TSA’s Information Technology Managed Services Contract
                                                      Page 3
    1. Contract Cost and Structure – How are the contract and related task orders set
       up, including how much the government has paid and what services and/or
       products have been received?

                           TSA’s OIT projected that, by the beginning of FY 2006, its total costs on the
                           Unisys contract would exceed $834 million2. The procurement began as a SOO
                           contract, but TSA managed it using the Service Request (SR) process to
                           accomplish specific tasks. However, the SR technical proposals did not always
                           include all of the required contracting elements such as statements of work with
                           delivery due dates and acceptance criteria. As a result, TSA had no assurance that
                           costs for Unisys deliverables were fair and reasonable; Unisys was sometimes
                           allowed to perform unauthorized contract work; and TSA did not effectively
                           manage its project priorities.

                           Contract Costs

                           TSA’s projected total expenditures consisted of $456 million in incurred costs
                           and $378 million to complete on-going projects. Contract obligations as of July
                           15, 2005, were $763 million. Total contract obligations do not include equipment
                           transition-to-ownership costs. TSA is leasing all equipment under this contract
                           from Unisys. The contract calls for government buy-out of this equipment should
                           TSA decide to cancel the contract. The buy-out fees decrease over time as the
                           seven-year contract period progresses.

                           The original contract including option years was to run through FY 2009.
                           Therefore, spending $834 million would mean that 83 percent of the contract
                           ceiling had been expended in less than half of the allotted time. TSA attributed
                           this accelerated spending to continually changing and increasing Information
                           Technology (IT) requirements. TSA officials stated that the staffing levels and
                           geographic complexity of the technology required to secure the entire nation’s
                           transportation system were largely undefined when TSA was established and the
                           ITMS Acquisition Plan was approved. Planned costs compared to actual costs are
                           discussed in more detail in the next section.

                           Contract Structure

                           TSA requested proposals from contractors on a DOT “Information Technology
                           Omnibus Procurement II (ITOP II) Government Wide Agency Contract
                           (GWAC),” which included previously negotiated hourly rates. DOT had
                           determined that the ITOP II labor prices were fair and reasonable.

2
  OIT reported that total costs through FY 2005 would be approximately $940 million, reflecting an additional $106 million
in DHS work order costs that would be obligated and incurred on the Unisys contract by the end of FY 2005. These DHS
costs count towards the contract ceiling of $1 billion, but do not affect TSA’s contract obligations because they were funded
by DHS.

                                                TSA’s Information Technology Managed Services Contract
                                                                       Page 4
TSA opted to issue a request for proposal (RFP) for a SOO contract instead of
the more common SOW contract. TSA personnel said that this type of contract
could help them to meet the time constraints Congress imposed to establish the
IT infrastructure of the new agency, particularly when TSA did not know exactly
what its IT requirements would encompass. In response to the draft report, TSA
said that it had selected a SOO contracting approach after performing market
research. The Acquisition Plan stated:

   “Under a SOO, the government describes its requirement in terms of
   desired objectives. Contractors will be asked to propose solutions that
   they believe will best meet or exceed the objectives. In essence, the
   government states the problem it wants solved, and industry is offered
   the freedom to propose what they consider the best solution. Under a
   SOO, the government is changing the very nature of what it is
   acquiring from the traditional compliance with a Government
   developed SOW, to performance results.”

TSA defined 11 contract objectives and asked the bidding contractors to define
how they planned to meet those objectives. TSA awarded the contract to Unisys
in August 2002 as a SOO contract with two work orders for information
technology managed services at 429 airports and TSA headquarters, with an
estimated 65,000 employees. The Unisys contract is an “Indefinite Delivery
Indefinite Quantity SOO” contract with a base period of three years, two-year
option periods (two), a $1 billion ceiling, and provisions for Firm-Fixed-Price,
Cost-Plus-Fixed-Fee, Cost-Plus-Award-Fee, Time-and-Materials, and Fixed-
Price-Award-Fee type work orders.

As the contract progressed, TSA managed the specific contract requirements by
issuing SRs with specific tasks. TSA did not, however, ensure that SR technical
proposals included all required contracting elements such as statements of work
with delivery due dates and acceptance criteria. When OIT did not receive FY
2003 funding at anticipated levels, it pulled smaller portions of work from the
two large original work orders to fit with the funding levels provided. The
contract expanded at that point into 11 work orders with hundreds of SRs,
representing individual projects that were essentially more defined subsets of the
original SOO. Appendix B describes the 11 work orders.

Fair and Reasonable Pricing

TSA did not adequately determine price reasonableness for individual projects.
Even though it determined that the initial hourly rates were fair and reasonable,
TSA often failed to determine that the number of hours charged or the labor
categories used were reasonable or justifiable. Unisys submitted cost proposals to
TSA for individual SRs using these hourly rates. However, only 7 of 27 SR
contracting files reviewed contained evidence of price reasonableness

                 TSA’s Information Technology Managed Services Contract
                                        Page 5
                        determinations or independent cost estimates. Federal Acquisition Regulation
                        (FAR) 15.402 (a) requires that contracting officers purchase supplies and
                        services at fair and reasonable prices. According to FAR 15.403-3 (a) (1),
                        contracting officers are responsible for obtaining information that is adequate for
                        evaluating the reasonableness of contract prices. We interviewed TSA OIT
                        program managers to ask how they determined fair and reasonable pricing.
                        Often, these officials cited the originally negotiated labor prices as their main
                        justification for determining price reasonableness. In fact, the few program
                        managers who closely examined Unisys’ cost proposals found that many times
                        Unisys proposed too many hours and higher labor categories than necessary for
                        the described scope of work. In these cases, TSA successfully negotiated lower
                        prices.

                        Further, TSA requested several audits of the Unisys contract from the Defense
                        Contract Audit Agency (DCAA). A TSA contracting official told us, “our office
                        reached out to DCAA in order to gain some assistance, an independent
                        assessment of the issues we saw… to rectify the issues we have faced [with
                        Unisys] on a long term basis.” DCAA reported pricing and billing problems.3 For
                        example, on January 4, 2005, it concluded that:

                        •   Unisys’ actual fully burdened rates were lower than the negotiated ITOP II
                            rates, which indicated higher profit margins than 8.5 percent contemplated by
                            the ITMS contract.
                        •   Unisys billed the Functional Subject Matter Expert labor category rates,
                            which were the highest rates among all 25 ITOP II rates, for employees who
                            did not have the requisite knowledge and expertise.
                        •   Unisys may have realized additional profit by billing uncompensated labor
                            hours that were not reflected in the proposed base labor rates used to build up
                            the ITOP II rates.
                        •   The ITOP II fully burdened rates were not representative of the actual
                            performance of the ITMS contract because Unisys used entirely different
                            subcontractors and fewer subcontract labor hours than initially proposed for
                            the ITOP II rates.

                        TSA reported that it has formed an Implementation Planning Team and is
                        working with Unisys to correct the issues identified in the DCAA audit reports.

                        Unauthorized Contract Work

                        Unisys repeatedly performed work under the contract without receiving
                        authorizations to proceed (ATP) from TSA's contracting office. TSA is partially
                        responsible for this occurrence because OIT officials asked Unisys to begin work
                        without signed ATPs. Unisys performed work before receiving an ATP on 13 of

3
    DCAA Report Number 6321-2004U17900002.

                                          TSA’s Information Technology Managed Services Contract
                                                                 Page 6
27 SRs reviewed. In one case, Unisys completed most of the work on a project
before TSA’s contracting office signed an ATP. In another instance, TSA refused
to pay Unisys for unauthorized work. Working without an ATP is referred to as
working "at risk." TSA is aware of this problem and has investigated it through
its Internal Affairs office. TSA's legal office is aware of this problem, too, and
warned OIT about continuing to allow Unisys to work at risk. On numerous
occasions, TSA's contracting officer attempted to prevent Unisys from working
at risk. For example, TSA’s contracting officer sent the following e-mail to
Unisys:
   “Unisys was not authorized to perform work under this SR; therefore,
   Unisys should not have provided any services under this SR to date
   for which Unisys expected reimbursement. For this reason the
   proposed $26,190 in Senior Program Manager costs are not
   accepted.”

The Summary of Procurement Action on the same SR stated:

   “Unisys has been repeatedly told by the contracting officers assigned
   to this contract that they shall not expect reimbursement for costs if
   they were not expressly directed by the contracting officer to perform
   work. It is the contracting officer's recommendation that the period of
   performance of this SR be the date the SR is accepted through
   September 30, 2004, and that Unisys be notified that all costs incurred
   from the start date shall be denied. Given that Unisys is a repeat
   offender on this issue, there is little hope that Unisys will instill more
   discipline without being financially penalized for failing to recognize
   the contracting officer as the only Government representative
   authorized to direct work.”

Contract files contained numerous other examples of warnings to Unisys about
working at risk. In the most costly example, Unisys requested over $40 million
for work it performed without an ATP. After two lengthy negotiations, TSA
agreed to pay $15 million for the unauthorized work.

Ineffective Project Prioritization

Changing priorities caused delays in deploying fundamental projects to airports
such as HSOC. Shifting priorities between projects appears to have caused some
of OIT’s contract management problems, too. Program managers reported that
they were often frustrated by these shifts, which transferred funds from one
project to another. At the end of FY 2004, TSA reprioritized its projects, moving
HSOC back to the top of the list. (See Table 1, p. 10, for more detail.)

TSA attributed the problems identified in this report to staffing constraints and
noted that the original staffing level for OIT was only 94 full-time equivalent

                  TSA’s Information Technology Managed Services Contract
                                         Page 7
              (FTE) positions. TSA subsequently increased the OIT staff ceiling to 142 FTEs.
              However, TSA officials cited a human capital study conducted for DHS in April
              2004 that showed OIT supported roughly 350 users per FTE, whereas the
              average number of supported users per FTE among other federal agencies was
              approximately 50. According to TSA, OIT regularly requests increases to the
              FTE baseline but increases have not been approved to relieve this
              disproportionate FTE-to-user ratio. Further, in its response to this report TSA
              stated that OIT staffing has not reached its ceiling level with current staffing at
              116 FTEs.

              In addition, TSA stated that many studies have shown that its contracting office
              is equally understaffed. The ITMS contracting staff has grown from one
              contracting officer to the current staff of seven since contract award. Increasing
              the contracting staff level continues to be a focus area for TSA.


2. Planned Versus Actual Costs and Deliverables – How do those actual services
   and products received compare to what was planned?
              Actual costs exceeded planned costs; and, TSA has not fully received essential
              planned deliverables. In the ITMS Acquisition Plan, OIT estimated costs to be $1
              billion over a seven-year period. However, TSA has spent nearly the entire
              amount in three years, but has not fully received all essential deliverables. TSA
              attributed most of its setbacks to budget cuts, understaffing, and changing as well
              as expanding requirements. Several TSA officials said that they never expected
              to complete all of the contract objectives within the original contract ceiling and
              originally estimated that the contract could cost between $3-5 billion, but set the
              contract ceiling at $1 billion. These same officials further explained that they
              were challenged to accurately estimate a contract ceiling because the staffing
              levels and complexity of the technology required to secure the entire U.S.
              transportation system were unknown when the ITMS Acquisition Plan was
              approved. In its response to our draft report, TSA said that it had specific
              requirements before the start of work and estimated the cost of those
              requirements at $1 billion. TSA was not, however, able to provide documentation
              on what specific requirements were included in the $1 billion ceiling.
              Consequently, we could not identify a clear basis for comparing estimated to
              actual costs for specific requirements.

              Planned Versus Actual Costs

              TSA’s Acquisition Plan stipulated a $1 billion contract ceiling to cover a seven-
              year contract period. The estimate for the base period (FY 2003-2005) was $450
              million. However, OIT estimated that it spent $834 million (83 percent) just three
              years into the contract. The chart below compares TSA’s planned contract
              expenditures for the base period with the actual contract costs.

                                TSA’s Information Technology Managed Services Contract
                                                       Page 8
                Cumulative Planned Contract Costs Compared to Actual Contract
                                            Costs
              $1,000
               $900
               $800
                                                                      Cumulative Planned
               $700                                                   Contract Costs
 $ Millions    $600
               $500
                                                                      Actual Costs (Incurred
               $400
                                                                      Costs + Estimate to
               $300                                                   Complete) Through FY
                                                                      05
               $200
               $100
                 $0
                          Base Contract Period - 2003 to 2005



Planned Versus Actual Deliverables

TSA has not received many planned deliverables that are critical to airport
security and communications. One example is High Speed Operational
Connectivity (HSOC), which TSA planned to have fully installed by December
31, 2002. TSA delayed HSOC deployment, however, when it did not receive full
funding. Two years into the contract, 11 percent of large “hub” airports and 100
percent of smaller “spoke” airports were still using dial-up connectivity. HSOC,
or the “White Package,” is the IT infrastructure that provides high-speed
electronic connectivity and communications to all major airports. TSA originally
scheduled HSOC for completion to all FSD sites by December 2002. TSA should
have placed higher priority on completing this project because of its importance
to airport security and communications, and because most other ITMS
projects−such as time and attendance software, the screener scheduling software,
and screener training programs−depend on it.

Table 1 shows the status of the 12 essential planned deliverables from the
contract. Appendix C provides additional details about these unmet deliverables,
including assessments from OIT and our office. Twelve essential deliverables
from this list were either overdue, or had no established due dates and were only
partially delivered. FAR 37.601(a)(2) stipulates that performance-based
contracting methods ensure that required performance quality levels are
achieved, and requires the government to use measurable performance standards,
including timeliness standards. OIT’s acceptance of work proposals without
planned delivery dates resulted in little control over when essential products and
services were delivered.




                           TSA’s Information Technology Managed Services Contract
                                                  Page 9
                                                                                                 Has Project
                                                                   Original Planned              Been Fully             Reason for Delay
               Deliverable Description4                             Delivery Date                Delivered?                (Per TSA)
      1 White Package (HSOC) to all airports                      Dec-2002                           No                  Lack of funding
        with FSDs
      2 Quality Control Surveillance Program                      No date promised                     No                 See Appendix C
      3 Electronically enable employees                           Dec-2002                             No                 Lack of funding
      4 Time and attendance system                                Dec-2002                             No                 Lack of funding
        (KRONOS)
      5 Scheduling system (SABRE)                                 Dec-2002                             No                 See Appendix C
      6 Interoperable land mobile radio services Aug-2003                                              No                 See Appendix C
      7 Electronic surveillance system                            No date promised                     No              Pilot/Lack of funding
      8 Integrated voicemail solution                             No date promised                     No                 Lack of funding
      9 Sensitive but unclassified (SBU)                          Dec-2002                             No                 See Appendix C
         capability
      10 Wireless solutions                                       No date promised                     No                 Technology not
                                                                                                                             available
      11 Government Information Security                          No date promised                     No                 See Appendix C
         Reform Act compliance
      12 Asset management                                         No date promised                     No                    In progress

                                 TABLE 1 – Essential Deliverables not Fully Received

                                 We asked FSDs to rate the effectiveness of the goods and service received under
                                 the Unisys contract. Although the FSDs gave Unisys an average score of 7.3 on a
                                 scale of 1 to 10 (with 1 “poor” and 10 “excellent”), the FSDs submitted written
                                 comments complaining about products provided (see Appendix D for survey
                                 results). Many FSDs commented on ineffective email, voice mail, telephone
                                 service, cell phone service, Internet access, and LMRs. They also noted that the
                                 shortfalls were the result of inadequate funding rather than the fault of Unisys.
                                 The FSDs said that they need these key communication tools to ensure airport
                                 security.

                                 OIT attributed most of its setbacks to budget cuts within TSA (see Appendix C
                                 for details from OIT as to why some deliverables were not met). Table 2 presents
                                 OIT’s budget requests, as well as TSA’s allocations and cuts, from FY 2002
                                 through 2004 (in millions).




4
 No direct correlation between these deliverables and the work orders shown in Appendix B exists. All original contract deliverables were associated with
Work Orders 1 and 2, but were later partially moved into other work orders. Therefore, we focused on key essential deliverables as shown in Table 1 and
Appendix B.


                                                           TSA’s Information Technology Managed Services Contract
                                                                                  Page 10
                      Fiscal                Initial     Final
                       Year     Requested Allocation Allocation
                       2002         $238.2    $108.2      $108.2
                       2003          290.5      269.5      269.5
                       2004          406.1      339.0      262.7
                       Total        $934.8    $716.7     $ 640.4

                      TABLE 2 – OIT Budget Requests and Allocations

              TSA cut the OIT FY 2004 budget three times after the initial allocation. OIT
              reported that these budget cuts resulted in delays on at least seven major ITMS
              projects.


3. Performance Measures and Contract Performance – How is contractor
   performance under these task orders measured and how is the contractor
   performing under these measures?
              OIT did not establish or implement adequate performance measures at the
              beginning of the Unisys contract. Performance measures have evolved and
              improved over the life of the contract, but they were limited to a small portion of
              SRs and added too late in the contract process to have an impact. OIT has,
              however, made use of the limited performance measures available to indicate its
              lack of satisfaction with Unisys performance, awarding Unisys only 5 percent of
              the available performance award funds.

              Measurement Tools

              OIT implemented 19 tools to measure, monitor, and track performance on the
              Unisys contract (listed in Appendix E). However, 12 of the 19 tools came into
              use a full year after the contract was in place. Several of the tools were
              introduced only recently or never fully implemented such as the Quality
              Assurance Surveillance Plan. We reviewed five performance measurement tools
              on 27 SRs with incurred costs of $320 million as of August 30, 2004 and
              concluded that all five performance measures needed improvement.


              a. Acceptance Criteria – OIT did not define acceptance criteria for 24 of the 27
                 SRs (89 percent). FAR 37.602-2 requires agencies to develop quality
                 assurance surveillance plans that contain measurable acceptance criteria.
                 Much of the work OIT placed on the Unisys contract did not include this
                 basic requirement. Without setting specific acceptance criteria–including
                 terms of quality, timeliness, and quantity–TSA cannot hold Unisys liable for
                 timely delivery of acceptable products and services. When OIT implemented
                 the new SR process, it should have required specific statements of work with


                                TSA’s Information Technology Managed Services Contract
                                                       Page 11
   all the elements described for each SR. Instead, OIT allowed Unisys to work
   on projects without deadlines or acceptance criteria.

   We interviewed program managers for the 27 SRs about acceptance criteria.
   Managers for seven of the projects admitted that OIT had not defined
   acceptance criteria for its projects. Three project managers misunderstood
   how to define acceptance criteria. They said that a completed DD250 form
   denoted acceptance criteria. However, a completed DD250 simply indicates
   that a product or service was received on a specific date and that the
   government accepts it. OIT should have clearly defined acceptance criteria
   prior to awarding contract modifications, not after completion of the work.

b. Service Level Agreements (SLAs) – SLAs are performance measures that
   gauge how well a contractor delivers services according to contractual
   requirements and customer expectations. For the first two years, OIT placed
   only 18 SLAs on this $1 billion contract. OIT admitted this number was
   insufficient because the SLAs covered only operations, maintenance, and
   security. Also, TSA’s performance manager reported that five security SLAs
   were insufficient and irrelevant to important security issues, thus they were
   never used. On October 1, 2004, OIT revised the SLAs, eliminating eight and
   adding 24 for a total of 34. However, adding new performance measures two
   years, and over half a billion dollars into the contract, occurred too late to
   effectively measure performance.

c. Performance Management Incentive Plan (PMIP) – OIT developed a PMIP to
   track and monitor contractor performance. However, because the original
   version was inadequate, OIT never fully implemented it. OIT made major
   changes to the plan and added it to the contract on October 1, 2004. The new
   version contained improved performance measures; however, two years into
   the contract, the PMIP was still evolving and was not fully implemented.
   Again, implementation of this measurement tool occurred too late to be
   effective.

d. Earned Value Management (EVM) – EVM is a project management tool that
   effectively integrates the investment scope of work with schedule and cost
   elements for optimum investment planning and control. According to Office
   of Management and Budget (OMB) Circular A-11, Preparation, Submission,
   and Execution of the Budget, Section 300, Planning, Budgeting, Acquisition
   and Management of Capital Assets, EVM is required for those parts of the
   investment where developmental effort is required. Those “parts” include
   prototypes and tests to select the most cost-effective alternative during the
   planning phase, the work during the acquisition phase, and any
   developmental, modification, or upgrade work performed during the
   operational/steady state phase. EVM is to be applied to both government and
   contractor efforts.


                 TSA’s Information Technology Managed Services Contract
                                        Page 12
   According to the Circular, program managers must use EVM for ongoing
   investments to identify problems on specific work packages. OIT did not
   begin applying EVM until the last quarter of FY 2004, and then, only on a
   few projects. OMB representatives told us that EVM requirements were in
   effect as of FY 2002, that TSA is required to use EVM on the Unisys
   contract, and that TSA's business case would receive a less than satisfactory
   score if it did not use EVM on a project as large as the Unisys contract. The
   end result might be a program or budget cut, according to OMB.

e. Independent Verification and Validation – OIT used a contractor to
   independently verify Unisys’ performance and to determine whether
   measuring and reporting SLAs produced significant and accurate measures of
   performance. The contractor prepared detailed reports and recommendations
   for improving contractor performance. However, OIT has not implemented
   those recommendations. For example, SLA AVL-10 measured the
   availability of all servers across the Unisys contract. In a November 2003
   report, the contractor told OIT that the current measures of server availability
   were not a good indicator of whether actual services (files, e-mail, print, and
   applications) were available to OIT customers. The independent evaluator
   recommended that, as soon as feasible, OIT develop SLAs to measure
   availability of these services. In another example from the same report, the
   evaluator discussed SLA AVL-11, which monitors infrastructure
   maintenance, and the time Unisys takes to repair and return items such as
   laptops, desktops, and software applications to service. The evaluator could
   not unconditionally validate this SLA because documentation for contacting
   customers for repairs was inadequate. The evaluator recommended that OIT
   implement a documentation process to report the time it takes to make
   repairs. OIT provided no evidence that it had implemented any of these
   recommendations. According to senior OIT officials, OIT did not implement
   the recommendations because of a funding shortage.

Awards

The Unisys contract contains a clause to establish an award pool each FY
quarter. As of September 30, 2004, TSA paid Unisys one $697,000 award (or 5
percent) of an available $13.7 million pool, signaling that Unisys generally did
not perform at a level sufficient to earn awards.

Customer Satisfaction

Many FSDs were dissatisfied with Unisys equipment and services. In our survey,
we asked all 158 FSDs nationwide to rate Unisys’ equipment and services. The
FSDs’ response rate (105 or 66 percent) shows their concern and frustration with
ITMS goods and services. Table 3 summarizes common issues reported by FSDs
and Appendix D lists a sample of FSD comments expressing dissatisfaction with
Unisys’ equipment and services.

                  TSA’s Information Technology Managed Services Contract
                                         Page 13
                                                  Number of FSDs
                Common Issues Reported by          Reporting this        Percent of
                             FSDs                     Issue             Respondents
              Help Desk Ineffective/Slow                31                  30%
              Need More Local Control of IT             27                  26%
              Cell Phones Ineffective                   26                  25%
              Plain Old Telephone Service
                                                          22                 21%
              (POTS) is Ineffective
              Local IT Support Needs
                                                          20                 19%
              Improvement
              Land Mobile Radio Equipment
                                                          14                 13%
              Ineffective
              Overall ITMS Needs Not being Met            13                 12%
              Copiers/Fax Ineffective                     12                 11%
              Email Slow and Cumbersome                   10                 10%

                            TABLE 3 – Common Issues Reported by FSDs



4. Appropriate Use of Small Business – How does TSA ensure appropriate use of
   small businesses?
              Unisys use of small businesses is appropriate. Although the ITMS contract has
              no specific small business subcontracting requirements for Unisys, it
              incorporates Unisys' Commercial Subcontracting Plan that uses goals across all
              of its government contracts without specific small business subcontracting goals
              for individual government contracts. TSA has taken an aggressive approach to
              ensure that Unisys complies with small business subcontractor management
              responsibilities, even though it is not contractually obligated to any specific
              goals.


5. Appropriate Use of New Technology – How does TSA ensure appropriate use
   of new technology through this contract?
              TSA has not provided new technology at airports. During our site visits to four
              airports and from responses on survey questionnaires from 105 airports, we
              learned that many FSDs were dissatisfied with the technology provided under the
              Unisys contract. OIT officials described two methods that were available to
              ensure the use of new technology, both through the SR process:

              a. Unisys knows it can propose new technology at any time for any service
                 request. Unisys updates products as needed to keep current with what the




                               TSA’s Information Technology Managed Services Contract
                                                      Page 14
                market has to offer. The contracting office makes product changes based on
                the availability of new technology.

             b. When OIT negotiates a new service request, OIT asks Unisys for a solution.
                Prior to acceptance, OIT program managers thoroughly evaluate Unisys’
                technical proposals. According to OIT officials, Unisys and the OIT program
                managers continuously research the market for the latest technology.

             Despite these options, many airports were operating with old technology, relying
             on dial-up Internet, and using email connectivity that was slow and ineffective.
             Telephone systems were often archaic without the capability to forward, hold, or
             conference calls. Land mobile radios did not have enough repeaters to ensure
             reception throughout airport properties and were not interoperable with other law
             enforcement agency equipment.


Conclusion
             In 2002, TSA started the rollout of security operations at airports under
             congressionally mandated short timeframes with significant budget constraints.
             TSA had to quickly establish an information technology and telecommunication
             infrastructure needed to support its employees at headquarters and airport
             locations across the United States. To accomplish this challenging task, TSA
             awarded a $1 billion contract to Unisys using a broad statement of objectives to
             describe the requirements. At the time of award, the TSA OIT and Contracting
             Office had small staffs overseeing numerous high value acquisitions, including
             the Unisys contract.

             The broad scope of requirements and short timeframes for implementation
             caused difficulty in establishing a realistic contract cost ceiling, structuring
             specific tasks and establishing reasonable prices for those tasks. These
             difficulties impeded TSA’s effective management of the Unisys contract and
             resulted in a lack of IT capabilities and support for TSA locations. This lack of
             IT capabilities, according to some FSDs, diminished their ability to accomplish
             their mission.

             The original funding is almost exhausted but many airports still do not have basic
             information technology and a telecommunications infrastructure. Moving to a
             new acquisition strategy at this time will allow TSA to establish well-defined
             requirements, develop independent cost estimates for those requirements, and
             better manage the implementation of new technology.




                               TSA’s Information Technology Managed Services Contract
                                                      Page 15
Management Comments and OIG Analysis
             In our draft report, we recommended that the Assistant Secretary, TSA:

             1. Close out the current ITMS contract at the end of the base period (August 12,
                2005), without exercising the option for additional contract periods; and, re-
                bid the work using either an adequately funded SOO contract or a SOW
                contract with well-defined requirements.
             2. Implement procedures to ensure that future procurement actions include the
                following features:

                •   Fair and reasonable pricing;
                •   Avoidance of unauthorized contract work;
                •   Establishment of acceptance criteria prior to contract award;
                •   Timely and effective performance measurements to ensure acceptable
                    quality contractor performance.


             TSA concurred with the recommendations and stated that it has taken appropriate
             actions to implement those recommendations. TSA has developed a new
             acquisition strategy for information technology services. This strategy identified
             some work previously performed by Unisys for immediate competition, and
             allows for future competition as opportunities are identified. On December 30,
             2005, TSA awarded a ‘bridge’ contract to Unisys that allows it to retain
             equipment leased under the current ITMS contract, and provide for the transition
             of ongoing projects. TSA said that the ‘bridge’ contract implements sound
             business practices and processes to address the weaknesses identified in our
             report. We consider the recommendations resolved and closed based on TSA’s
             assurances that these actions are complete.

             TSA also provided technical comments on the report content. We considered
             those comments in the development of the final report and revised the report to
             include TSA’s comments and clarify specific points where necessary.

             Appendix F includes TSA’s comments in their entirety.




                              TSA’s Information Technology Managed Services Contract
                                                     Page 16
Appendix A
Purpose, Scope, and Methodology

Purpose – Our audit objective was to answer five congressional questions:

1. How are the contracts and related task orders set up, including how much
   the government has paid and what services and/or products have been
   received?
2. How do those actual services and products received compare to what was
   planned?
3. How is contractor performance under these task orders measured and how
   is the contractor performing under these measures?
4. How does TSA ensure appropriate use of small businesses through this
   contract?
5. How does TSA ensure appropriate use of new technology through this
   contract?

Scope – We conducted the audit between July 2004 and July 2005 under the
authority of the Inspector General Act of 1978, as amended, and according to
generally accepted government auditing standards. Our scope focused strictly
on answering these questions and covered the contract through Modification
110. The audit included incurred costs as of August 30, 2004, and estimates to
complete on-going projects, and deliverables completed as of the beginning of
FY 2005. We performed limited testing (sampled SRs) of the accuracy of
incurred cost data provided by TSA and Unisys. We did not test the accuracy
of other electronic data provided.

We selected a judgmental sample of 27 Service Requests, which included the
15 largest dollar projects (over $10 million) as well as 12 that were added as
we learned about projects by attending OIT performance management
meetings, conducting interviews, observing airport deliverables, and analyzing
survey questionnaire results. We used the same sample to review projects for
fair and reasonable pricing and performance measurement issues.

Methodology – To answer the congressional inquiry, we reviewed and
analyzed contracting and SR files, contractor sub-contract files, invoices,
financial reports and databases, TSA policy and IT manuals, and
miscellaneous file documentation. We interviewed TSA contracting
personnel, department heads, program managers, and budget employees. We
also attended OIT performance management meetings.

We conferred with Defense Contract Audit Agency (DCAA) auditors who
were conducting an audit of Unisys invoices for the ITMS contract and with
an official at OMB. We reviewed previous audits and reviews conducted by
the Government Accountability Office, DHS OIG, and TSA’s Internal Affairs
Office.


              TSA’s Information Technology Managed Services Contract
                                     Page 17
Appendix A
Purpose, Scope, and Methodology


We composed and sent a survey questionnaire to 158 federal security directors
asking them to rate the products and services provided by Unisys. We also
toured four airports and interviewed FSDs, Unisys on-site IT specialists, and
TSA screeners and managers.

We took the list of contract deliverables directly from Unisys contract
attachments J-9 and J-11 (Work Orders 0001 and 0002 Technical Proposals)
and from contract Modification 0004, “A Proposal for Measuring ITMS
Success.” TSA’s contracting officer confirmed that this list was an accurate
representation of contract deliverables. We asked OIT officials to confirm
whether each deliverable had been completed.




              TSA’s Information Technology Managed Services Contract
                                     Page 18
Appendix B
Work Order Descriptions


    Work
    Order
   Number                    Work Order Descriptions
      1     Enterprise Operations Center
      2     Field/Headquarters Infrastructure Deployment
      3     Land Mobile Radio, Electronic Surveillance & Wireless Systems
      4     Enterprise Management
      5     Applications
            Time and Attendance (KRONOS) and Scheduling (SABRE)
      6     Applications
      7     Cargo Applications
      8     e-Gov Operating Platform
      9     DHS IT Support Vehicle – Ends FY 04
     10     DHS - US VISIT
     11     DHS IT Support Vehicle – Beyond FY 04




             TSA’s Information Technology Managed Services Contract
                                    Page 19
                            Appendix C
                            Contract Deliverables Not Fully Completed

    We provided a list of original contract deliverables to OIT officials to ascertain whether
    each deliverable was complete, and if not, why not. As shown in the table below, many of
    the essential deliverables were due by December 2002 and were still in progress or not
    delivered by the beginning of FY 2005. OIT’s explanations are in Column D. If we
    disagreed with OIT’s conclusions, the reasons are shown in Column D. OIT provided the
    following overview:

    Introduction - The ITMS contract with Unisys was intended to be a vehicle from which
    TSA could order the IT services that were required to meet TSA mission requirements.
    From the beginning, it was assumed that adequate funding would be made available in a
    timely manner to facilitate the capabilities and timeline as proposed within this vehicle.
    At time of award, TSA was going through a period of constantly changing requirements
    almost on a daily basis. This time of change due in part to the turmoil of standing up an
    agency, an IT office, lack of timely funding, and trying to meet congressional mandates
    was unforeseeable and greatly impacted our ability to execute as originally envisioned.
    These factors contributed to the numerous contract changes that were executed through
    the Service Request process and/or through the ordering of services when funding was
    made available. The majority of the deliverables that will be discussed below were
    affected by the factors as discussed above. Even though an expectation was set early on
    that these capabilities would be rolled out on a promised schedule, forces outside of
    OIT’s control necessitated that the original planning needed to be modified to facilitate
    the constantly changed environment.

                                     B. Service/   C. Service/
                                       Product       Product
       A. Planned Contract           Delivered?    Delivered?      D. Reason for Non-delivery of Service
           Deliverables               (Per TSA)     (Per OIG)            or Product/OIG Comments
1. White Package                     In progress   In progress    a. & b. - This is still in process of being
a. White Package to all CAT X (21)                                completed as funding permits. Total
& CAT1 airports by 11/19/02                                       funding to meet these requirements has
b. LAN/WAN infrastructure                                         not been provided to complete this task.
c. Operational hosting center                                     c. This was completed as identified above
(Network Operations Center, WAN                                   d. Encryption capable Land Mobile
Operations Center, Security                                       Radios have been fielded to all airports
Operations Center)                                                e. Total funding to meet these
d. Encrypted LMR                                                  requirements has not been provided to
TSA “accepts” installation                                        complete this task.
e. White Package to 122
remaining “FSD” airports by
12/31/02.




                                TSA’s Information Technology Managed Services Contract
                                                       Page 20
                                Appendix C
                                Contract Deliverables Not Fully Completed

                                         B. Service/   C. Service/
                                          Product       Product
       A. Planned Contract               Delivered?    Delivered?     D. Reason for Non-delivery of Service
           Deliverables                  (Per TSA)     (Per OIG)           or Product/OIG Comments

2. Quality Control Surveillance          In progress   In progress    Initial QCSP was developed but not
Program (QCSP)                                                        implemented. Subsequently, QCSP is
                                                                      being re-vamped based on the new SLA
Implement a robust QCSP                                               metrics, and the QCSP was to be
                                                                      implemented by the end of QTR 1 FY05.
                                                                      Interim QCSP was implemented by the
                                                                      OIT via the Quality Management
                                                                      monitoring process, IV&V and the OIT
                                                                      Project Control process.
3. Electronically enable employees       In progress   In progress    As equipment was fielded these accounts
Each employee will have the IT                                        were provided to meet users
support necessary to meet their                                       requirements. Screener Accounts were
basic “role” needs.                                                   provided as the training requirements and
Role-based: Staff=PC, e-mail,                                         funding were made available to support
inter/intranet access, telephone,                                     these requirements.
and other capabilities.
Screeners=e-mail, inter /intranet                                     OIG Comment: Unisys has missed its
access, electronic access for                                         deadlines for this project.
scheduling and benefits
50% of employees by 11/19/02
100% of employees by 12/31/02
4. Time and Attendance System            Yes           No             This program is still in the delivery
Provide a Time and Attendance                                         stages. An initial capability was delivered
card reader device, installation and                                  in FY03 and is still in use. Lack of
maintenance solution that are                                         available funding has prevented the
technically feasible and cost-                                        rollout of services to the maximum extent
effective which can be integrated                                     the program was developed to provide.
with the TSA Transportation
Worker Identification Card (TWIC).                                    OIG Comment: OIT scheduled this
                                                                      project for completion at all airports by
                                                                      12/31/02. However, as noted above, it is
                                                                      still in the delivery stages.
5. FSD Staff Management                  In progress   In progress    This capability was fielded according to
(Scheduling System (SABRE)                                            TSA requirements that continued to
Ability to acquire, assign, and track                                 evolve post contract award. Both TSA
employees.                                                            and Unisys modified this original
a. Electronic database of staff                                       schedule through the SR process to meet
available and fully-trained to assign                                 TSA’s mission requirements.
b. Electronic ability to assign staff
to shifts at least 3 weeks in
advance
c. Electronic ability to track staff                                  OIG Comment: As noted in column A,
time and attendance                                                   100% SABRE was originally scheduled
d. Electronic ability to pay staff for                                for completion by 12/31/02.
shift work performed
e. 50% of employees by 11/19/02
f. 100% of employees by 12/31/02


                                    TSA’s Information Technology Managed Services Contract
                                                           Page 21
                              Appendix C
                              Contract Deliverables Not Fully Completed

                                      B. Service/   C. Service/
                                       Product        Product
      A. Planned Contract             Delivered?    Delivered?      D. Reason for Non-delivery of Service
          Deliverables                (Per TSA)      (Per OIG)            or Product/OIG Comments
6. Land Mobile Radios                 Fulfilled     No             LMR system provided to TSA to support
Provide secure, interoperable                                      its requirements.
Land Mobile Radio Services to our
customers.                                                         OIG Comment: Many FSDs reported that
                                                                   their LMRs do not work across the entire
                                                                   airport property and are not interoperable
                                                                   with other law enforcement agencies’
                                                                   equipment.
7. Electronic Surveillance System     Fulfilled     No             ESS is an ongoing program to deploy a
Provide an Electronic Surveillance                                 pilot to several airports to test the
System (ESS)                                                       feasibility of the system. Upon a
                                                                   successful pilot and when funding is
                                                                   identified, the Electronic Surveillance
                                                                   System will be deployed to the required
                                                                   TSA field Sites.

                                                                   OIG Comment: This system has not
                                                                   been deployed to the required TSA field
                                                                   sites; therefore, it cannot be considered
                                                                   fulfilled.
8. Integrated Voicemail System        In progress   In progress    Voice over IP (VoiP) was deployed to
Implement an integrated                                            HQ. Budget constraints forced a
voice/voicemail solution including                                 reduction of deployed sites. Alternative
dialing plans that are 100%                                        systems were provided to airport sites
interoperable with all Field/HQ                                    that did not receive VoIP. The VoIP
nodes and equipment. Provide a                                     program has been restarted to try and
migration path to Unified                                          fulfill this requirement.
Messaging capability.
                                                                   OIG Comment: This item has only been
                                                                   deployed to HQ.
9. Classified Capability              In progress   In progress    This requirement continued to evolve
TSA ability to manage crises-                                      after contract award to the present
Ability for TSA to alert and                                       capability of FSD being able to
communicate with appropriate                                       communicate in a timely manner with the
employees in the event of national                                 Transportation Security Operations
or regional events.                                                Center.
a. Command and Control
b. FSD Crisis Participation
c. 158 FSD airports with
classified/Sensitive But
Unclassified (SBU) capability by
11/19/02
d. All airports with classified/SBU
capability by 12/31/02.




                                 TSA’s Information Technology Managed Services Contract
                                                        Page 22
                               Appendix C
                               Contract Deliverables Not Fully Completed

                                        B. Service/   C. Service/
                                          Product       Product
       A. Planned Contract              Delivered?    Delivered?      D. Reason for Non-delivery of Service
           Deliverables                  (Per TSA)     (Per OIG)             or Product/OIG Comments
10. Wireless Solutions                  In progress   In progress    The multiple variables at airports have
Provide coordinated wireless                                         required TSA to wait for technology to
solutions consistent with                                            catch up to its need to have an extremely
operational need and consistent                                      secure system that can meet the many
with TSA Enterprise Architecture.                                    varied laws, regulations, and codes that
                                                                     are imposed upon TSA by the numerous
                                                                     airport authorities.
11. Government Information              In progress   In progress    GISRA has been superseded by Federal
Security Reform Act Compliance                                       Information Security Management Act
(GISRA)                                                              requirements and this is being met with
Implement established GISRA                                          the joint support of the TSA Security
compliance/review processes                                          Office and Team Unisys.
throughout the TSA Enterprise.
12. EOC Deployment                      Completed     No             Task was completed based upon stand-
Development of all Enterprise                                        up of the EOC and site visits by TSA
Operations Center related (EOC)                                      security, infrastructure, and operations.
deployment (services or
equipment) packages coordinated                                      OIG Comment: This deliverable includes
with all TSA stakeholders and                                        asset management. Airport FSDs
consistent with higher mission                                       reported that Unisys has not delivered
schedules and IT security                                            this yet.
requirements. Includes asset
management.
13. Balanced Scorecard                  In progress   In progress    TSA is still developing its approach to a
Balanced scorecard to define the                                     balanced scorecard based upon OIT
consolidated components of                                           Strategic Objectives.
Performance Plan.
14. LAN/WAN/VPN                         Provided      No             This was implemented to the maximum
Provide TSA LAN and WAN                                              extent possible under the funding
connectivity, Internet access, VPN                                   provided by TSA. Insufficient funding was
capability, and the servers and                                      provided to complete the installation of
applications that make up the core                                   LAN/WAN connectivity to all TSA Sites.
foundation of those networks and
are architected to optimize                                          OIG Comment: This was not fully
information security, total security,                                implemented due to funding constraints.
total cost of ownership, reliability,
and user satisfaction in meeting
TSA objectives.
15. Total Cost of Ownership (TCO)       In progress   In progress    This is maintained at several levels
Develop and maintain TCO                                             consistent with standard government
consistent with scope of the TSA                                     practices and is evaluated through the
IT infrastructure, configuration                                     individual SR proposals and
management, and TCO benefits.                                        accomplished through the “estimate to
                                                                     complete” reviews.




                                   TSA’s Information Technology Managed Services Contract
                                                          Page 23
                              Appendix C
                              Contract Deliverables Not Fully Completed

                                      B. Service/   C. Service/
                                        Product       Product
       A. Planned Contract            Delivered?    Delivered?      D. Reason for Non-delivery of Service
            Deliverables               (Per TSA)     (Per OIG)              or Product/OIG Comments
16. Enterprise and Security           In progress   In progress    Unisys is helping TSA to develop
Architecture                                                       enterprise and security architectures
Immediate participation in the                                     under the auspices of Work Order 4.
creation and maintenance of the                                    Initial efforts have been completed and
TSA enterprise and security                                        delivered. OIT has an Enterprise
architecture planning and                                          Architecture, Technical Reference Model,
compliance process and TSA                                         and Security Architecture. Capital
capital planning and portfolio                                     Planning and Portfolio Management is
management process.                                                under development at this time.
17. On-site IT Support                Yes           No             On-site technical support at select
Provide on-site support at critical                                locations for the Federal Security Director
CAT X, CAT I airports, Federal Air                                 and subordinate staff to assist with
Marshall, and other locations                                      network administration activities, system
designated by TSA.                                                 security, training needs, and related
                                                                   technical work and coordination as
                                                                   required.

                                                                   OIG Comment: Only 36 of the 41
                                                                   Category I airport FSDs responding to the
                                                                   OIG survey reported that they have on-
                                                                   site IT support.




                                 TSA’s Information Technology Managed Services Contract
                                                        Page 24
   Appendix D
   Federal Security Director (FSD) Survey
   Questionnaire Results

   TSA has deployed various levels of ITMS goods and services to
   429 airports. We sent a survey questionnaire to 158 federal
   security directors (FSDs) and received responses from 105, or 66
   percent (most FSDs are responsible for more than one airport). We
   asked the FSDs to rate the products and services they are receiving
   from Unisys on the ITMS contract.

    FSDs were asked to rate the following goods and services on a scale of
   1 to 10, with 1 “poor” and 10 “excellent”. The figures below represent the
                     average of the 105 responses received.

     Cell         Help                     Land On-Site Overall
    Phones E-mail Desk Radios Copiers/Fax Phones Tech   Rating
      7.1   7.9    7.5  7.4       8.4       6.8   7.7    7.3


   In many cases, although the FSDs rated the item satisfactorily, they
   included narrative comments that contradicted the numerical
   rating. The following are notable comments from dissatisfied
   FSDs:

1. “With no on-site service, response is slow, resulting in loss of
   productivity when computers go down. Inflexibility in adding
   peripherals to the system (printers) also reduces productivity.
   Technicians usually do not have any working knowledge of the
   programs they are attempting to fix and end up spending most of
   their time on the phone with the helpdesk. We could be just as
   effective with an administrative password and the helpdesk and
   save thousands of dollars per service call.”

2. “Radio equipment provided by Unisys does not provide adequate
   coverage of all areas serviced by TSA at the airport. Request for a
   repeater has not been met due to lack of TSA funding. An off-site
   contractor provides local Unisys technical support. The contractor
   provides good support but equipment is sometimes deadlined
   awaiting arrival of contractor. On-site dedicated support is
   necessary.”

3. “Much of what is handled by UNISYS can be better performed by
   in house employees at little or no cost to the government. For
   example, last year we needed to upgrade Adobe Acrobat. This is a
   routine upgrade performed by consumers everywhere in the world.
   Unfortunately, under the UNISYS contract it required a UNISYS
   rep to visit each work station to upgrade the software, because no
   one on my staff was authorized administrative privileges.”

       TSA’s Information Technology Managed Services Contract
                              Page 25
   Appendix D
   Federal Security Director (FSD) Survey
   Questionnaire Results


4. “The Help Desk is far from helpful. Although the service has
   improved over the last year, there are many times when you are
   sent the wrong template document, they refer you to departments
   or people that don’t exist, or they will argue with you when you are
   trying to explain what is really needed to fix the problem at your
   location. We have had open jobs for weeks with no follow-up or a
   date when a field tech will be out to fix the problems.”

5. “Overall, UNISYS is providing ‘reasonably’ good service for this
   Directorate. Email service is rated low only because Red Package
   support is not deemed as acceptable service to meet the expected
   pace of TSA. Understanding that this is largely a money issue, all
   airports should still have a better baud modem rate than 30-46K!
   This FSD is scheduled for higher speed connectivity at its off-site
   headquarters before the end of November 2004, but services at all
   eight of our airports will remain on the Red Package for an
   undetermined amount of time. Our concern is that service will
   decrease with dwindling Red Package assets and service, and this
   is a topic that requires immediate address.”

6. “Inadequate number of cell phones available to core staff and
   managers. White package not at all locations. Radios are
   inadequate to the tasking. Not all divisions are in possession of fax
   machines (Regulatory, training, etc.) I am not satisfied that we
   have properly equipped all our management staff with proper
   desktop and cellular communications. My training staff is a very
   busy one and does not have a fax machine. My Regulatory
   operation should have a proprietary fax machine and does not.
   Proper printing equipment is not available to all operations for all
   aspects of their requirements. There is a problem with a print
   queue for some printers that should be fixed by TSA HQ and is
   being neglected.”

7. “Very important that we get [this airport] on the white package as
   soon as possible. Both the Deputy FSD and ASI are assigned to
   this location and they are significantly handicapped due to the slow
   and unsatisfactory performance of the old “red” package system.
   Numerous inquiries into a timetable for their white package
   installation have provided very little information.”

8. “We are not pleased with the level of services provided as the
   services are not state of the art and in fact are archaic.”

       TSA’s Information Technology Managed Services Contract
                              Page 26
   Appendix D
   Federal Security Director (FSD) Survey
   Questionnaire Results


9. “The areas for improvement are: 1) [this airport] needs a decent,
   reliable, modern office phone system and equipment. We were
   given a hodge-podge of $20 Radio Shack sale rack phones with
   which to conduct business. Many do not have common office
   features like speakerphone, hold, transfer, inter-com or re-dial
   capabilities. Some are so old they actually have a mechanical bell
   that rings when someone is calling. 2) The other major item in
   need of some attention is radio service. We have thousands of
   dollars worth of radio equipment to use, but do not have a repeater
   that will boost the signal to all corners of the airport. Sometimes
   people on the same concourse can't even communicate with each
   other. This needs to be fixed. For emergencies, we need a robust
   radio system that will work anywhere inside the terminal building
   and outside the building up to 1-2 miles (end of runway, around
   entire perimeter). 3) Next, it is essential that we get connectivity at
   the airport terminal (we have T-1 line at the office off airport) in
   some way, shape, or form. Our Managers and Supervisors have to
   enter large amounts of data into a computer then connect via a dial
   up connection. This takes a long time and keeps them from being
   as efficient as they could/should be. A T-1 line has been installed
   at the airport, but no cable has ever been strung to the manager's
   office or other locations nor has a server been installed to connect
   airport personnel to TSA systems. 4) Lastly, the "Lanier" copiers
   are good but have not been configured to the LAN in order to take
   advantage of all their advanced capabilities.”

10. “Telephone equipment is very basic. Need a phone system with
    many more options. Need to be able to put callers on hold, answer
    any line from any office and have speaker phone capability.”

11. “Initial roll out and set up of equipment worked well. However,
    when problems occur with equipment, the help desk is the first
    entry point to resolve the problem. Often, the tech at the help desk
    cannot solve the problem and a ticket number is assigned for an
    on-site visit. The local Unisys techs (not assigned to TSA) are not
    usually familiar with TSA networks and configurations and must
    also call the helpdesk during the visit to resolve issues. In addition,
    software is not on site and must be sent to the techs prior to the
    visit. This adds time to the repair process. We have experienced
    many trouble calls that result in the tech spending all day at the
    TSA office and still not resolving the problem. For example,
    Setting up two new laptops for our Aviation Security Inspectors

       TSA’s Information Technology Managed Services Contract
                              Page 27
    Appendix D
    Federal Security Director (FSD) Survey
    Questionnaire Results

    took almost two weeks. The tech had problems with the log in
    sequence for the dial-up capability and the “image” was reloaded
    several times.”

12. “We have a legacy closed circuit television system, several
    hundreds of thousands of dollars hanging from the roof of our
    checkpoint as a tool to use, that UNISYS cannot/will not maintain
    because it is not under the ITMS contract. We cannot even plug it
    in to our HSOC servers for connectivity. We’re in a position to
    maintain it out of operational funds. This feels like fraud, waste,
    and abuse of government resources. Our airports still are working
    on dial-up and the HSOC package has not been deployed. Cell
    phones are limited to Verizon service, which has great coverage in
    the eastern United States but is not a premium service in the
    Northwest. The IT system itself is so overprotected that it’s
    difficult to use, and I believe some people explore ways to defeat
    it, just to be able to use it - that is not good security. The IT system
    provided by UNISYS is serviceable for day-to-day operations – we
    get by. But it is largely 1980’s technology being applied in 2005. It
    is limited in scope and ignores a large IT tool installed specifically
    to enhance security operations under the ATSA. Our IT system is
    in dire need of upgrade and the contract needs to cover everything
    in a manner that services our needs.”

13. “Local Unisys technician is outstanding but a second technician is
    needed because of the volume of work. White package is still not
    activated for most of the airport (awaiting a switch and rewiring
    since TSA has moved since spaces were first wired). There are no
    local file or web servers and only limited manual backups.
    Bandwidth is insufficient for planned HSOC rollout. We are
    unable to share intelligence information via network with other
    government agencies because of the refusal to allow secure
    external connectivity. LMRs remain unencrypted and monitored by
    the press and possibly others. There is no direct radio connectivity
    with other first responders for emergency coordination. Land
    telephone service is inadequate. We are leasing a large number of
    Plain Old Telephone Service lines at higher cost than a central
    exchange system and minimal functionality. There is no caller ID,
    ten-digit dialing is required for intra-office calling, and voice mail
    requires listening to the entire message before deleting. There is no
    way of determining how many voicemails are waiting. Telephones
    supplied are not ergonomic and have no speakerphone capability.
    There is no capability for announcement service - a feature that

       TSA’s Information Technology Managed Services Contract
                              Page 28
   Appendix D
   Federal Security Director (FSD) Survey
   Questionnaire Results

   was vital during the three hurricanes that struck the airport.
   Requests for additional lines take an excessively long time to
   approve.”

14. “Cell phone service has been spotty due to multiple dead spots
    throughout the airport. Help desk - prime to sub handoff and
    follow-up spotty in completing repairs. Radio Equipment - poor
    design, lack of repeaters at field limit effectiveness. Land
    telephone equip and service, not sure if this is due to funding or
    poor Unisys management, but it has taken two years to get our first
    land lines into the airport. Our support center has gotten two dial-
    up lines within the last 60 days, and baggage pods have gotten
    landlines within the past two weeks. There still is no landline
    capability for any checkpoint at any of our 7 terminals. Overall
    Unisys Performance - Many of our issues may be outside of the
    purview of Unisys (i.e. due to funding, TSA HQ decisions, etc.)
    however our overall satisfaction with telephones, computer
    connectivity, and general responsiveness on the part of Unisys is
    that they are below average as compared with other providers I
    have had experience with.”




       TSA’s Information Technology Managed Services Contract
                              Page 29
                         Appendix E
                         Methods and Tools TSA Uses to Measure, Monitor, and Track
                         Performance on the Unisys Contract


                                                                                       IMPLEMENTATION
       DESCRIPTION OF TOOL                              OBJECTIVES                          DATE
Independent Validation and Verification      Monitor program accountability                 Jan-03
Independent Monitoring of                    Ensure costs, schedule, and                    Jan-03
programs/projects by designated              performance are in accordance with
Contracting Officer’s Technical              contract
Representatives (COTRs)
TSA Investment Review Board                  Review of Project investment portfolio            Jan-03
TSA Information Technology Management        Review of Project investment portfolio            Jan-03
Council
Contractor Estimate To Complete reports      Monitor financial accountability                  Mar-03
Invoice Reconciliation                       Monitor financial accountability                  Mar-03
Review of Service Orders                     Monitor financial accountability                  Mar-03
TSA Change Control Board (CCB)               Monitor change requirements                       Aug-03
TSA Configuration Control Board (CCB)        Monitor and track CCB issues                      Aug-03
Engineering Review Board                     Monitor and track CCB issues                      Aug-03
SLAs                                         Outline SLAs for performance                      Aug-03
                                             management to contracts
Program Control Review of project            Monitor financial accountability                  Sept-03
expenditures
Quality Assurance Surveillance Plan          Monitor quality performance                       Oct-03

Quad Charts                                  Monitor and report on project
                                             performance-cost, schedule and                    Oct-03
                                             performance
Budget Versus Expenditure Reports            Monitor financial accountability                  Jan 04
Performance Measure Reviews                  Assess SLAs, key performance                      Feb-04
                                             indicators, business objectives and
                                             special project incentives as
                                             addressed in the QASP and PMIP.

Cost, Schedule, Performance Management Brief senior management                                 Mar-04
Reviews
PMIP                                   Monitor and report on performance                       Oct-04
                                       measures on contract
Directors’ Survey                            Provides a subjective review of the               Oct-04
                                             ITMS performance based on the
                                             PMIP




                                      TSA’s Information Technology Managed Services Contract
                                                             Page 30
Appendix F
Management Comments




         TSA’s Information Technology Managed Services Contract
                                Page 31
                      Appendix F
                      Management Comments

  The Transportation Security Administration (TSA) Formal Response to the Department of
       Homeland Security (DHS) Office of Inspector General (OIG) Draft Report and
    Recommendations, “Audit of the Transportation Security Administration’s Information
             Technology Managed Services Contract with Unisys Corporation”

TSA has reviewed the draft report, Audit of the Transportation Security Administration’s
Information Technology Managed Services Contract with Unisys Corporation, which was prepared
in response to a request from Congressman Don Young.

On December 30, 2005, TSA awarded the “bridge” contract to Unisys in accordance with our
approved acquisition strategy to transition to the anticipated departmental solutions. The new
contract has implemented sound business practices and processes to address the weaknesses
identified in the subject report. As part of the strategy, TSA has identified work previously
performed by Unisys to be immediately competed, and will continue to seek efforts for future
competition.

We appreciate the opportunity to comment and provide our input. TSA generally concurs with the
recommendations; however, there are a number of areas within the report that require clarification.

Contract Structure

The draft report states that TSA awarded a Statement of Objectives (SOO) contract but shortly
thereafter changed the contract structure to a Statement of Work (SOW) contract because the Office
of Information Technology (OIT) did not receive anticipated funding. The report further states that
TSA chose this approach due to Congressional time constraints. This is inaccurate. After careful
market research to determine the best contract vehicle, TSA awarded a contract to Unisys based on
an SOO. The use of an SOO is broadly recognized as a best practice for implementation of
performance based contract management. The SOO provides the strategic information technology
(IT) performance objectives of TSA. Subsequently, TSA negotiated an SOW at the work order
level, which is part of the overall SOO contract, not a separate contract as stated in the report. This
process, known as the Service Request (SR) process, enables TSA to analyze proposed solutions and
determine whether the contractor’s approach is technically acceptable and based on fair and
reasonable costs.

Planned vs. Actual Contract Cost

When TSA was initially defining IT requirements, the scope of the proposed Information Technology
Managed Services (ITMS) contract changed frequently. Since the requirements could not be
completely defined at that time, a decision was made to freeze the requirements to allow critical work
to commence. The cost of these requirements was estimated at approximately $1 billion. Therefore
during the review period prior to award it was determined that the contract would have a ceiling set at
$1 billion.

TSA recognized that the magnitude of ITMS required flexibility and cost adjustment based on
experience. The scope of the contract was appropriately broad and the structure accommodated

                                     TSA’s Information Technology Managed Services Contract
                                                            Page 32
                      Appendix F
                      Management Comments

undefined requirements (through time and materials line items) with requirements for commercially
available technology and services that could be priced on a firm fixed basis. However, TSA could
not have anticipated the inclusion of IT requirements for the yet-to-be created DHS.

Fair and Reasonable Pricing

The Department of Transportation (DOT) determined that the Information Technology
Omnibus II (ITOP II) prices were fair and reasonable. ITMS is a task order under ITOP II.
It was awarded competitively, and the prices were again determined to be fair and reasonable
at that time. In addition, TSA reviewed each service request for technical acceptability and
determined that it was fair and reasonable based on the best information available. When proposal
evaluators determined that the cost proposals included too much labor, the wrong type of labor
categories, or the labor rates were high, the TSA team negotiated lower prices.

Unauthorized Contract Work

TSA has established a formal process, referred to as the “authorization to proceed process,” to
eliminate the occurrence of unauthorized work. There is no work being performed on the contract
without formal authorization from the Contracting Officer. In most cases where Unisys performed
work prior to authorization, invoiced costs were not accepted or paid.

Performance Measurement Tools

Unisys’ performance has been continuously measured under the ITMS program. As the program has
matured, the performance measurement program has evolved. Since the contract was awarded, the
Performance Management Plan and Service Level Agreements (SLAs) have undergone two
substantial revisions, and the performance measurement system is now based on current industry
best practices. Further, under the program, incentive awards are made only when performance
exceeds contractual requirements and objectives. For the 11 months that the current performance
plan has been in place, the contractor has consistently been evaluated as meeting (but not exceeding)
contractual requirements. Consequently, during that time, no incentive award was paid. The
effectiveness of this program is illustrated by Unisys’ performance ratings during the contract having
steadily increased over the course of the performance program.

According to Office of Management and Budget guidance, the Earned Value Management System
(EVMS) policies for civilian agencies are required by the end of this calendar year. Following
traditional project management best practices of planning using a work breakdown schedule (WBS),
the ITMS team has included an EVMS provision in the Bridge Contract that allows the Government
to properly manage baselines and control overall cost, schedule, and performance. The EVMS being
implemented is based on the project level for projects over $500K and 6 months of effort. The
contractor is to report at the second level of the WBS, while explaining variances over 10
percent. The Government subject matter experts agree that standard reporting of performance from
the contractor, based on project management best practices tied to a WBS and schedule, will provide
necessary control and insight into each project without incurring significant cost or effort.


                                     TSA’s Information Technology Managed Services Contract
                                                            Page 33
                       Appendix F
                       Management Comments

Customer Satisfaction

TSA has tracked monthly customer satisfaction metrics, through follow up SPOC surveys that are
based on a 5.0 likert scale. These monthly metrics are a compilation of daily follow-up calls in
response to user support issues. The questions include responses based on promptness,
courteousness, technical service, and problem solving. Using a response of 1 as the lowest
(customer dissatisfaction) and 5 as the highest (customer satisfaction), TSA was able to identify
potential areas for improvement and areas where support is satisfactory to TSA customers. The
results to date indicate a customer satisfaction range from 4.69 to 4.85 on monthly statistics from
October 2003 to October 2005 with an average rate of 4.78 on a 5.0 scale. Field surveys are
conducted annually in addition to SPOC surveys. Data acquired during the past 3 years of field
surveys indicate that in 2003 there was a score of 4.31, in 2004 a score of 4.25, and in 2005 a score
of 4.30 on a 5.0 likert scale.
Appropriate Use of Small Businesses

In accordance with industry practice, TSA implemented the small business goals and subcontracting
plan that was in effect under the Information Technology Omnibus II (ITOP II) contract. Under the
terms of the contract, Unisys submits a Monthly Small Business Activity Report to the TSA Office
of Small Business as well as the ITMS Contracting Officer (CO). This report identifies the
subcontract, the type of business, and the total disbursements made to date for each business size
category. TSA has placed significant emphasis on achieving small business goals since early in the
contract.

The TSA acquisition strategy for future IT contracts is in alignment with agency small business
goals. The strategy also identifies specific requirements that will be set aside for small business
prime contracts.

Appropriate Use of New Technology

TSA has driven significant technological enhancements to airports. Information resources and
telecommunications were provided to a newly formed operation that included headquarters and
airports for an estimated 65,000 employees. There was no existing IT infrastructure in place when
TSA was formed. Initial operating capability at TSA locations included rapid deployment of cellular
phones and laptops with a dial-up modem for e-mail and Internet access. To meet full IT
requirements, TSA implemented the High Speed Connectivity (HSOC) program. In its first year,
HSOC was implemented at 16 TSA field locations; this provided for a more stable, secure and
better-performing IT environment. To date, HSOC has provided 160 Federal Security Directors
(FSDs) with High Speed Access (100%), 2,140 Training Computers Networked (53%), 215 MPLS
Technology Insertions (98% of deployed network), 2,550 Field VoIP Intelligent Phones, and 1,800
Headquarter User Migrations (99%). Through its HSOC initiatives, TSA continues to upgrade
connectivity to each airport and FSD location. This includes connectivity to all TSA controlled
space, i.e., passenger checkpoints, baggage areas, training rooms, office spaces, and wide area
connectivity to the TSA Hosting Center. Full deployment of HSOC will also provide VoIP



                                      TSA’s Information Technology Managed Services Contract
                                                             Page 34
                      Appendix F
                      Management Comments

Intelligent Phones, migration to Windows XP and e-mail, and conformance to IT Architecture and
Security standards.

TSA Response to DHS OIG Recommendations:

OIG Recommendation 1: Close out the current ITMS contract at the end of the base period
August 12, 2005, without exercising the option for additional contract periods; and, re-bid the
work using either an adequately funded SOO contract or a SOW contract with well-defined
requirements.

   TSA concurs. TSA did not exercise the option period of the ITMS contract. TSA is currently in
   the process of negotiating a new bridge contract for portions of the IT services currently
   performed by Unisys. The TSA requirement was defined in a comprehensive statement of work
   developed by TSA and then further refined by using alpha negotiation techniques. Every
   possible scenario was considered regarding the acquisition of these services beyond the life of
   the existing contract, including competing the requirement outright. The solution developed and
   approved is a combination of continuing with Unisys for portions of the existing work for a short
   time (a bridge contract) until the Department establishes Department-wide acquisition vehicles,
   which will leverage the buying power of the 22 agencies within the Department, and competing
   other aspects of the requirement.
   A DHS initiative to consolidate the entire Department’s and bureaus’ IT requirements is
   anticipated to go into effect in the next 2 to 3 years. During the performance of this bridge, TSA
   intends to transition to those contracts when possible. Therefore, this bridge contract will ensure
   that there is no lapse in service while awaiting DHS’s contract. Furthermore, TSA is designing a
   plan to break out “non-core” services and competitively award contracts to multiple vendors,
   including small businesses, to infuse competition into the process. These non-core requirements
   will include IT equipment purchases, wireless communication services, application development,
   and program management services and accounts for
   30 percent of the current effort.

OIG Recommendation 2: Implement procedures to ensure that future procurement actions
include the following features:

       Fair and reasonable pricing;
       Avoidance of unauthorized contract work;
       Establishment of acceptance criteria prior to contract award;
       Timely and effective performance measurements to ensure acceptable quality
       contractor performance

       TSA concurs. TSA has in place mechanisms to ensure all of the items cited above are
       achieving the desired objectives. All new proposals are being properly evaluated, negotiated,
       and documented in accordance with acquisition regulations and best practices.

       In order to ensure that TSA receives fair and reasonable pricing, certified cost and pricing
       data is required by TSA as part of the proposal on the bridge effort. TSA is performing a

                                     TSA’s Information Technology Managed Services Contract
                                                            Page 35
               Appendix F
               Management Comments

technical evaluation of all labor and cost analysis while using Federal Acquisition Regulation
part 15 as a guide, and the Defense Contract Audit Agency is auditing the cost proposal.

To prevent unauthorized work, a fixed price contract for all CORE services will be awarded
and any requests for new work will require a properly submitted procurement request
package that contains a statement of work, an Independent Government Cost Estimate, and
inspection and acceptance criteria. All new work will be fixed price to the maximum extent
possible.

The contract will contain inspection and acceptance criteria and SLAs to determine
acceptable performance. TSA will use quarterly performance reviews to monitor
performance.

OIT is also realigning its contracting officer technical representatives to specific areas of the
contract and will use technical monitors to ensure performance standards are achieved.




                               TSA’s Information Technology Managed Services Contract
                                                      Page 36
Appendix G
Congressional Request




          TSA’s Information Technology Managed Services Contract
                                 Page 37
Appendix H
Major Contributors To This Report

Tonda Hadley, Field Office Director
Paige Hamrick, Supervisory Auditor
Cheri Kennedy, Senior Auditor
Rebecca Rodriguez, Auditor
Sharon Snedecker, Auditor




              TSA’s Information Technology Managed Services Contract
                                     Page 38
Appendix I
Report Distribution

Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
General Counsel
Executive Secretariat
Assistant Secretary, TSA
Under Secretary, Management
Chief Procurement Officer
Assistant Secretary, Public Affairs
Assistant Secretary, Policy
Assistant Secretary, Legislative Affairs
DHS OIG Liaison
TSA Audit Liaison


Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




              TSA’s Information Technology Managed Services Contract
                                     Page 39
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
